         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Special Report




       EPA Needs to Reexamine 

       How It Defines Its Payment 

       Recapture Audit Program 

       Report No. 11-P-0362

       July 19, 2011
Report Contributors:                               Janet Kasper
                                                   Madeline Mullen




Abbreviations

EPA           U.S. Environmental Protection Agency
FY            Fiscal year
IPERA         Improper Payments Elimination and Recovery Act
OIG           Office of Inspector General
OMB           Office of Management and Budget




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                       write:   EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                              11-P-0362
                                                                                                        July 19, 2011
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment


Why We Did This Review            EPA Needs to Reexamine How It Defines Its
In November 2010, the Office
                                  Payment Recapture Audit Program
of Management and Budget
(OMB) required all agencies        What We Found
to submit a payment recapture
audit plan describing current     EPA makes numerous efforts to recapture improper payments, but does not
payment recapture efforts. The    consider its activities to be a formal payment recapture audit program, as defined
U.S. Environmental Protection     by OMB guidance. A payment recapture audit program is an agency’s overall plan
Agency (EPA), Office of           for risk analysis and the performance of payment recapture audits and recovery
Inspector General (OIG), was      activities. In its January 2011 submission to OMB, EPA stated that it did not have
required to review the action     a formal payment recapture audit program. However, based on the OMB guidance
plan and provide feedback to      issued in April 2011 and information EPA had previously submitted to OMB, we
EPA.                              determined that many of the activities EPA already conducts meet the definition of
                                  a payment recapture audit program.
Background
                                  We reviewed EPA’s improper payments methodology and found three areas
Each year the federal             where all improper payment efforts were not quantified for the Improper Payments
government loses billions of      Elimination and Recovery Act submission to OMB and the fiscal year 2010
dollars on improper payments      Agency Financial Report. These areas involved contract cost issues identified by
to individuals, organizations,    the Defense Contract Audit Agency, costs questioned identified during Agency
and contractors. Therefore,       post-award grant reviews, and costs questioned in OIG and Single Audit reports.
agencies are required to have a   EPA can use funds collected under a payment recapture audit program to
cost-effective program of         reimburse itself for payment recapture work and fund future financial
internal controls to prevent,     improvement programs.
detect, and recover
overpayments.                      What We Recommend

                                  We recommend that EPA report the results of all activities, including audits the
                                  OIG and other audit organizations conduct, when reporting on its payment
                                  recapture audit program in 2011. During a March 29, 2011, meeting with EPA,
                                  Agency staff agreed and stated that all sources of improper payment information
                                  would be reported in compliance with OMB guidance. In response to the draft
                                  report, EPA concurred with our recommendation and identified corrective actions
For further information,          that will be completed by November 15, 2011. EPA’s response adequately
contact our Office of             addresses the report findings and recommendations.
Congressional, Public Affairs
and Management at
(202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2011/
20110719-11-P-0362.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                           July 19, 2011

MEMORANDUM

SUBJECT:	 EPA Needs to Reexamine How It Defines
          Its Payment Recapture Audit Program
          Report No. 11-P-0362


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Barbara J. Bennett
               Chief Financial Officer


This is our report on the subject review conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated direct labor and travel costs for this report are $31,099.

Action Required

In accordance with EPA Manual 2750, we are closing this report on issuance in our tracking
system. The agreed-to milestones for each recommendation are required to be tracked in the
Management Audit Tracking System until the corrective actions are complete. While a formal
response to the final report is not required, we request that you provide us with documentation of
the policies and procedures that you prepare and issue in response to this report. We have no
objections to the further release of this report to the public. This report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist at
(202) 566-0899 or heist.melissa@epa.gov, or Janet Kasper at (312) 886-3059 or
kasper.janet@epa.gov.
EPA Needs to Reexamine How It Defines Its                                                                                    11-P-0362
Payment Recapture Audit Program


                                      Table of Contents 

   Purpose........................................................................................................................   1


   Background .................................................................................................................      1


   Scope and Methodology.............................................................................................                2


   EPA Needs to Expand What It Considers a 

   Payment Recapture Audit Program...........................................................................                        2


   Recommendation ........................................................................................................           4


   Agency Response and OIG Comments ....................................................................                             4


   Status of Recommendations and Potential Monetary Benefits..............................                                           5




Appendices
   A       Agency Response ..............................................................................................            6


   B       Distribution .........................................................................................................    8

Purpose
            The Office of Management and Budget’s (OMB’s) memorandum, Increasing
            Efforts to Recapture Improper Payments by Intensifying and Expanding Payment
            Recapture Audits, November 16, 2010, required all agencies to submit a payment
            recapture audit plan. The plan was to describe current payment recapture efforts
            pre-dating the 2010 Improper Payments Elimination and Recovery Act (IPERA)
            as well as planned new recapture efforts. Agencies were to submit plans to OMB
            and each agency’s inspector general by January 14, 2011. Each Office of
            Inspector General (OIG) was to review the action plan and provide feedback to
            the agency. This report provides our feedback to the U.S. Environmental
            Protection Agency (EPA) regarding its January 14, 2011, submission.

Background
            The IPERA of 2010 became law on July 22, 2010. It amended the Improper
            Payments Information Act of 2002. IPERA requires that each agency periodically
            review and identify all programs and activities that may be susceptible to
            significant improper payments. The Act also significantly increased requirements
            for payment recapture efforts by expanding the types of payments that can be
            reviewed and lowering the threshold of annual outlays that require agencies to
            conduct payment recapture audit programs.

            IPERA defined an improper payment as any payment that should not have been
            made or that was made in an incorrect amount, or any payment to an ineligible
            recipient, for an ineligible good or service, a duplicate payment, payment for a
            good or service not received, or a payment that does not account for credit for
            applicable discounts. OMB guidance added to the improper payment definition
            those payments that agencies are unable to discern whether they are proper as a
            result of insufficient documentation.

            According to OMB guidance, an improper payment recapture audit program is an
            agency’s overall plan for risk analysis and the performance of payment recapture
            audits and recovery activities. The program includes policies and activities such
            as prepayment reviews, a requirement that all relevant documents be made
            available before making payments, and post-award audits. For agencies that
            expend more than $1 million in a fiscal year, a payment recapture audit program
            is a required element of their internal controls over payments if conducting such
            audits is cost effective.

            OMB’s November 2010 memorandum included directions for submitting plans to
            OMB that describe their payment recapture audit programs. For agencies that did
            not have payment recapture audit programs, the guidance required that agencies
            list all potential program and activity areas that could be reviewed by payment
            recapture auditors under IPERA’s expanded authorities, including newly created
            and existing programs and activity areas. The OMB memo also expanded the


11-P-0362                                                                                      1
            requirements for what types of improper payments are to be included in the
            annual financial report. Agencies are to report on improper payments:

                  Voluntarily returned by contractors
                  Used to offset future payments
                  Identified and returned to the agency through OIG efforts, such as audits,
                   reviews, or tips from the public
                  Identified and recovered through management post-payment reviews and
                   close-out.

Scope and Methodology

            Our work performed does not constitute an audit under Government Auditing
            Standards because our purpose was limited to review and comment on EPA’s
            January 14, 2011, IPERA submission. We analyzed EPA’s fiscal year (FY) 2010
            improper payments reporting that was included in the OMB submission and the
            FY 2010 Agency Financial Report. We limited our review to assessing the
            completeness of the information that was included in the OMB submission and
            Agency Financial Report. To accomplish this, we interviewed EPA Headquarters
            staff in the Office of the Chief Financial Officer (OCFO) and reviewed supporting
            documentation. Although our review was limited to an assessment of the
            methodology for accumulating data on improper payments, we plan to analyze
            EPA’s FY 2011 Agency Financial Report for improper payments in greater detail.
            We conducted our work from January to June 2011.

EPA Needs to Expand What It Considers a Payment Recapture Audit
Program
            EPA makes numerous efforts to recapture improper payments, but does not
            consider its activities to be a formal payment recapture audit program as defined
            by OMB guidance. A payment recapture audit program is an agency’s overall
            plan for risk analysis and the performance of payment recapture audits and
            recovery activities. In its January 2011 submission to OMB, EPA stated that it did
            not have a formal payment recapture audit program. However, based on the OMB
            guidance issued in April 2011 and information EPA had previously submitted to
            OMB, we determined that many of the activities EPA already conducts meet the
            definition of a payment recapture audit program. We believe that these activities
            should be included as part of its formal program. We also found three areas where
            all improper payment efforts were not quantified for the IPERA submission and
            the FY 2010 Agency Financial Report.

            EPA’s IPERA submission described a strong program of internal reviews and
            controls which could be considered part of a payment recapture recovery audit
            program. EPA reviews and analyzes accounting and financial records, supporting
            documentation, and other pertinent information within grants, contracts, and State
            Revolving Fund activities. EPA’s program includes:


11-P-0362                                                                                       2
                     Contract invoice reviews

                     Defense Contract Audit Agency audits of large contracts 

                     Post-award reviews (baseline and advanced monitoring) of grants 

                     State revolving funds transaction testing 

                     OMB Circular A-123 reviews of payroll, travel, and purchase cards 


            Since EPA conducts such activities and, as a result, identifies and recaptures
            overpayments, we believe that EPA’s activities should be included as part of its
            formal program. EPA can use funds collected under a payment recapture audit
            program for several purposes:

                	 Reimburse the actual expenses of the payment recapture audit services
                	 Establish a financial management improvement program that ensures
                   actions are taken to address the problems that directly contributed to the
                   improper payments
                	 Spend monies for activities related to the original purpose of the funds.

            We reviewed EPA’s improper payments methodology and found three areas
            where all improper payment efforts were not quantified for the IPERA submission
            and the FY 2010 Agency Financial Report, as shown in table 1.

            Table 1: Additional activities that meet definition of payment recapture audit program
             EPA area            Comments
             Contracts &         Defense Contract Audit Agency audits were not included. According
             Commodities         to EPA's FY 2010 Agency Financial Report for the period October 1,
                                 2009, through September 30, 2010, EPA achieved final action on 20
                                 Defense Contract Audit Agency audits. The funds recovered from
                                 these audits were not considered part of potential payment recapture
                                 audit activities.
             Grants              Only non-profits were included, so improper payments that EPA
                                 found and documented for tribes, state and local governments, and
                                 universities were not reported. Also, OIG financial audit and Single
                                 Audit sustained costs were not reported with the other improper
                                 payments.
             State Revolving     Sustained costs identified through single audits were not included.
             Funds
            Source: OIG review of EPA’s January 14, 2011, submission to OMB.


            We believe that all improper payments detected through EPA efforts, and reports
            EPA receives regarding improper payments from audit organizations, meet the
            definition of a payment recapture audit program and should be reported in the
            Agency Financial Report in order to comply with the Improper Payment
            Information Act. OMB’s November 2010 guidance specifically identifies
            improper payments from OIG audits and agency post-award reviews as having to
            be included in the Agency Financial Report. During a March 29, 2011, meeting
            with EPA, Agency staff agreed with our analysis and stated that all sources of



11-P-0362                                                                                          3
            improper payment information would be reported in compliance with the April
            2011 OMB guidance.

Recommendation
               1.	 We recommend that the Chief Financial Officer report the results of all
                   activities, including audits the OIG and other audit organizations conduct,
                   when reporting on its payment recapture audit program in 2011.

Agency Response and OIG Comments
            EPA agreed with our recommendation. The response divides the recommendation
            into three separate actions that will address:

                  Defense Contract Audit Agency audits
                  Post-award grant review questioned costs
                  OIG and Single Audit report results

            EPA plans to implement all corrective actions by November 15, 2011, which is
            when the next Agency Financial Report is due. The response addresses the
            recommendation and provides a timeframe for completing the actions.




11-P-0362                                                                                    4
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                Actual/Planned
    Rec.    Page                                                                                                 Completion      Claimed    Agreed-To
    No.      No.                         Subject                            Status1      Action Official             Date        Amount      Amount

     1        4    Report the results of all activities, including audits     O       Chief Financial Officer     11/15/2011
                   the OIG and other audit organizations conduct,
                   when reporting on its payment recapture audit
                   program in 2011.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-P-0362                                                                                                                                               5
                                                                                          Appendix A

                                   Agency Response

                                              JUL - 1 2011
MEMORANDUM

SUBJECT:        Response to the Office of Inspector General's Draft Special Report:
                EPA Needs to Reexamine How It Defines Its Payment Recapture
                Audit Program, Project No. OA-FY11-0123, dated June 6, 2011

FROM:           /s/ Barbara J. Bennett
                Chief Financial Officer

TO:             Arthur A. Elkins, Jr.
                Inspector General

Thank you for providing us with the opportunity to comment on and respond to the findings and
recommendations made in the "Draft Special Report: EPA Needs to Reexamine How It Defines
Its Payment Recapture Audit Program." We have reviewed the draft report and attached is our
proposed plan for response. Additionally, we request closure upon issuance of your final report.

If you have any questions concerning the audit response, please contact Stefan Silzer, Director,
Office of Financial Management at (202) 564-5389 or Steve Erickson of the Financial Policy and
Planning Staff at (202) 564-1780.

Attachment

cc: 	Maryann Froehlich
     Melissa Heist
     Joshua Baylson
     Janet Kasper
     Stefan Silzer
     Howard Corcoran
     John Bashista
     Raffael Stein
     Susan Dax
     Melvin Visnick
     Jeanne Conklin
     Lisa Maass
     Meshell Jones-Peeler
     Dale Miller
     Madeline Mullen
     Steven Erickson
     Stephen Daniels
     Samuel Peterson
     Howard Rubin
     Sheila Platt


11-P-0362                                                                                          6
                                                                                           Attachment

                        OCFO’S Response to OIG Draft Report
       “EPA Needs to Reexamine How It Defines Its Payment Recapture Audit Program”
                      Project No. OA-FY11-0123, dated June 6, 2011

Rec.        OIG Recommendation                Action             Proposed Action            Proposed
No.                                          Official (s)                                  Completion
                                                                                              Date
1.1    Report the results of improper       OARM/OAM        EPA concurs with this          11/15/2011
       payment efforts involving                            recommendation. The
       contract cost issues identified by                   Defense Contract Audit
       the Defense Contract Audit                           Agency (DCAA) audits are
       Agency.                                              an important tool and
                                                            information source.
                                                            However, except in limited
                                                            instances, DCAA audits
                                                            address the costs claimed in
                                                            the incurred cost submission
                                                            and not the amounts billed
                                                            and paid.

                                                      EPA will report DCAA audit
                                                      efforts in the Agency
                                                      Financial Report (AFR) that
                                                      result in amounts over and
                                                      under billed by the
                                                      contractor.
1.2    Report the results of improper       OARM/OGD EPA concurs with this                 11/15/2011
       payment efforts involving costs                recommendation. Questioned
       questioned that have been                      costs determined to be
       identified during agency post-                 improper payments that are
       award grant reviews.                           identified during all post-
                                                      award grant reviews will be
                                                      reported in the AFR,
                                                      including state and local
                                                      governments, tribes, and
                                                      universities.
1.3    Report the results of improper       OARM/OGD, EPA concurs with this                11/15/2011
       payment efforts involving costs         OW     recommendation. Questioned
       questioned in Office of Inspector              costs determined to be
       General (OIG) and Single Audit                 improper payments that are
       reports.                                       identified through OIG audits
                                                      and state Single Audit
                                                      reports will be reported in the
                                                      AFR.




11-P-0362                                                                                               7
                                                                              Appendix B

                                   Distribution
Office of the Administrator
Chief Financial Officer
Assistant Administrator, Office of Administration and Resources Management
Assistant Administrator, Office of Water
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Acquisition Management, Office of Administration and Resources Management
Director, Office of Grants and Debarment, Office of Administration and Resources Management
Audit Followup Coordinator, Office of the Chief Financial Officer




11-P-0362                                                                                 8
